Filed 2/26/20 P. v. Giese CA2/6

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)

v.
CHARLES CHAD GIESE,
Defendant and Appellant.

Charles Chad Giese appeals the judgment entered after a
jury convicted him of willful, deliberate, and premeditated
murder (Pen. Code,1 §§ 187, 189) and found true allegations that
in committing the murder he used two deadly weapons, i.e., a
baseball bat and a knife (§ 12022, subd. (b)(1)). The trial court
sentenced him to 26 years to life in state prison and ordered him
to pay fines and fees including a $7,800 restitution fine (§ 1202.4,
subd. (b)), a $30 criminal conviction assessment (Gov. Code,
All statutory references are to the Penal Code unless
otherwise stated.
1

APPENDIX A

§ 70373), and a $40 court operations assessment (§ 1465.8, subd.
(a)(1)). Appellant contends (1) his extrajudicial statements to law
enforcement were admitted against him in violation of Miranda
v. Arizona (1966) 384 U.S. 436 [16 L.Ed.2d 694] (Miranda); (2)
the evidence is insufficient to support his conviction of first
degree murder; (3) the court erred in excluding evidence of the
victim’s drug use; (4) the jury was erroneously instructed on the
right of self-defense available to a person who starts a fight or
engages in mutual combat; (5) the prosecutor committed
misconduct during closing argument, and defense counsel
provided ineffective assistance by failing to object; and (6) the
cumulative effect of the alleged errors compels the reversal of his
conviction. Appellant also contends the court erred in imposing
the criminal conviction and court operations assessments without
first determining his ability to pay those assessments, as
contemplated in People v. Dueñas (2019) 30 Cal.App.5th 1157
(Dueñas). We affirm.
STATEMENT OF FACTS
In early 2015,2 appellant began renting a room in Walter
Vallivero’s mobile home. Shortly after appellant moved in, the
manager of the mobile home park began receiving complaints
from other residents about frequent loud arguments at
Vallivero’s home. There were also complaints that appellant had
urinated in public and was acting strangely. Several residents
requested that appellant be ordered to leave the mobile home
park. Shawn Reed, the owner of the park, sent Vallivero a letter
outlining the complaints regarding appellant and stating that he
would be asked to leave the park if his inappropriate behavior
continued.
2

All date references are to the year 2015.

2

APPENDIX A

On September 5, the police were called to Vallivero’s home
regarding a physical altercation between appellant and Vallivero.
Appellant told the police that he and Vallivero were arguing
about trash in the kitchen when Vallivero reached into the
cushion on the couch and pulled out a BB gun. Appellant
grabbed the hand that was holding the gun and repeatedly
punched Vallivero in the face. Vallivero told the responding
officers that appellant repeatedly punched him in the face after
he confronted appellant about the messy kitchen. According to
Vallivero, whose face was bloody and swollen, it was appellant
who grabbed the BB gun from the couch cushions before running
outside.
A few days later, Reed sent Vallivero a letter referring to
the recent incident and revoking Vallivero’s right to have
appellant as a renter. On September 17, Reed sent Vallivero
another letter informing him that appellant had 30 days to
vacate the premises. Ten days later, Reed sent Vallivero a letter
informing him that appellant had been observed recklessly
driving in the mobile home park while intoxicated. Vallivero
subsequently told Reed “he was having a hard time getting an
agreement with [appellant] to vacate the park.” On October 7,
appellant was formally served with notice of the eviction
proceedings against him.
On the morning of November 16, appellant’s mother
Brenda Caves called 911 and reported that appellant had hit his
roommate with a baseball bat, that the roommate did not appear
to be breathing, and that appellant had put him in the bathtub.
San Luis Obispo County Sheriff’s Deputies Dustin Phillips and
Jason Hall responded to Caves’s house. Appellant was outside
the house with Caves and his hand was bandaged. Appellant

3

APPENDIX A

requested medical assistance and Deputy Hall rode with him in
an ambulance to the hospital. While they were in the ambulance,
appellant said he cut his finger on a glass bottle and that his jaw
hurt because he had been hit with a fist.
Vallivero’s body was found in the bathtub. He had a
laceration to his left arm, a deep incision wound on the back of
his neck, lacerations and fractures along the left side of his head,
stab wounds to his back, and numerous wounds to his head and
body that were consistent with blunt force trauma. Vallivero also
had defensive wounds on his forearms, hands, and wrists, and
bruises on the right side of his torso. The cause of death was
blunt force injuries to the head. Toxicology results showed that
Vallivero had a 0.19 blood alcohol level; tests for controlled
substances were negative.
Appellant was interviewed at the hospital and later at the
sheriff’s station. He said he had just finished cleaning the
kitchen when Vallivero arrived home after buying beer and told
him to “get the fuck out of [his] house.” Appellant became
“heated” and armed himself with a rock because he was going to
walk past Vallivero and was “sick of [Vallivero’s] shit.” Vallivero
told appellant, “I’m going to kill you. You’re going to fucking die.”
Vallivero punched appellant. Appellant hit Vallivero with the
rock and struck him approximately three times on the head with
a beer bottle. The bottle broke and Vallivero fell backwards onto
the couch. Appellant picked up a baseball bat and hit Vallivero
with it, causing Vallivero to fall to the floor.
Appellant continued to hit Vallivero with the bat as
Vallivero lay motionless on the floor. Appellant then retrieved a
knife and tried to stab Vallivero in the chest “to make sure that

4

APPENDIX A

he was gone.” The knife would not penetrate Vallivero’s chest, so
appellant stabbed him in the neck.
After placing Vallivero’s body in the bathtub, appellant
drank Vallivero’s beer and attempted to clean the house. He also
considered fleeing, but ultimately called Caves and told her what
had happened.
Appellant believed that he had to defend himself because
Vallivero “kept punching” him, but acknowledged that Vallivero
had struck him only once or twice. Appellant felt that his
conduct was due to feelings of frustration that “went way
overboard” and added that if he could “take it back [he] would.”
DISCUSSION
Miranda Motion
Appellant contends the trial court erred in denying his
motion to exclude the statements he made at the hospital and
sheriff’s station on the ground they were obtained in violation of
Miranda. We are not persuaded.
Miranda provides that a person questioned by law
enforcement after being “taken into custody” must first be
warned that he or she has the right to remain silent, that any
statements that he or she makes may be used against the person,
and that he or she has a right to the presence of retained or
appointed counsel. (Miranda, supra, 384 U.S. at p. 444.) For the
Miranda rule to apply, there must be an interrogation by the
police while the suspect is in police custody. (Id. at p. 478.)
Whether a person is in custody “depends on the objective
circumstances of the interrogation, not on the subjective views
harbored by either the interrogating officers or the person being
questioned.” (Stansbury v. California (1994) 511 U.S. 318, 323
[128 L.Ed.2d 293].) “The question whether [the] defendant was

5

APPENDIX A

in custody for Miranda purposes is a mixed question of law and
fact.” (People v. Ochoa (1998) 19 Cal.4th 353, 401.) “[A]n
appellate court must ‘apply a deferential substantial evidence
standard’ [citation] to the trial court’s factual findings regarding
the circumstances surrounding the interrogation, and it must
independently decide whether, given those circumstances, ‘a
reasonable person in [the] defendant’s position would have felt
free to end the questioning and leave’ [citation].” (People v.
Leonard (2007) 40 Cal.4th 1370, 1400.)
“To determine whether an interrogation is custodial we
consider a number of circumstances, including: ‘whether contact
with law enforcement was initiated by the police or the person
interrogated, and if by the police, whether the person voluntarily
agreed to an interview; whether the express purpose of the
interview was to question the person as a witness or a suspect;
where the interview took place; whether police informed the
person that he or she was under arrest or in custody; whether
they informed the person that he or she was free to terminate the
interview and leave at any time and/or whether the person’s
conduct indicated an awareness of such freedom; whether there
were restrictions on the person’s freedom of movement during the
interview; how long the interrogation lasted; how many police
officers participated; whether they dominated and controlled the
course of the interrogation; whether they manifested a belief that
the person was culpable and they had evidence to prove it;
whether the police were aggressive, confrontational, and/or
accusatory; whether the police used interrogation techniques to
pressure the suspect; and whether the person was arrested at the
end of the interrogation.’” (People v. Torres (2018) 25 Cal.App.5th
162, 172-173.)

6

APPENDIX A

At the hearing on appellant’s suppression motion, Deputy
Hall testified that appellant was subjected to a patdown search
for the deputies’ safety when they first encountered him at
Caves’s house. Appellant was never handcuffed and Deputy Hall
never asked him any questions about Vallivero’s killing. Deputy
Hall rode with appellant in the ambulance to the hospital to
ensure the paramedics’ safety while Deputy Phillips followed in
the patrol car.
Detective David Marquez arrived at the hospital and
introduced himself to appellant as he lay in a bed in the
emergency room. Detective Marquez asked appellant if he
needed anything and told him he would speak to him after he
was treated.
Detective Nathan Paul subsequently arrived and
introduced himself to appellant. Detective Paul told appellant he
was there to find out what had happened and asked if appellant
was willing to accompany him to the sheriff’s station to talk.
Appellant said “okay” then added, “I don’t know my rights. . . . I
defended myself.” Detective Paul responded “you’re not under
arrest. If you defended yourself, that’s what I want to hear
about.” Appellant replied: “My mom’s working on an attorney
. . . and [she] told me not to talk to anyone cause I could
incriminate myself . . . . I don’t know my rights, so um, I was in a
fight and I defended myself and – and it got really bad and then I
didn’t know what to do after that point. I tried to clean up the
mess.” Appellant proceeded to provide a detailed account of what
had happened. At one point during the interview, appellant was
allowed to use the bathroom.
After appellant had been treated, Detective Paul asked if
he was still willing to accompany him to the sheriff’s station for

7

APPENDIX A

further questioning. Appellant asked if he could smoke a
cigarette after they arrived at the sheriff’s station and the
detective replied, “When we get there we’ll let you . . . stand
outside and . . . smoke as many as you need.” Appellant then
asked, “I know you’ve probably gotta book me, right?” The
detective replied in the negative and told appellant he was not
being handcuffed and was a “free walking man.”
After they arrived at the sheriff’s station, appellant was
allowed to smoke a cigarette outside and use a restroom without
any supervision. Before conducting the interview, Detective Paul
confirmed with appellant that he was there voluntarily and
reiterated he was not under arrest. During the interview,
appellant took at least three cigarette breaks and a bathroom
break. Near the end of the interview, appellant was told he was
being detained for killing Vallivero.
In denying appellant’s suppression motion, the court found
that appellant had voluntarily agreed to be interviewed; that
there was no custodial interrogation because a reasonable person
in appellant’s position would have felt free to terminate the
interview until the point he was told he was being detained; and
that appellant had never unequivocally indicated that he wanted
an attorney. The court further found that law enforcement had
not dominated or controlled the course of the interrogation and
that appellant had “set the pace” of the interview.
The court did not err in denying appellant’s motion. At
both the hospital and the sheriff’s station, appellant was free of
physical restraints and was advised he was not under arrest and
was free to leave. Moreover, no weapons were displayed and
there is nothing to indicate that the deputies and detectives who
spoke to him were aggressive or accusatory or employed special

8

APPENDIX A

techniques to pressure him. On the contrary, every effort was
made to ensure that appellant was comfortable and that his
needs were accommodated. The court thus correctly found, under
the totality of the circumstances, that appellant’s statements at
the hospital and the sheriff’s station were not the result of a
custodial interrogation. (People v. Leonard, supra, 40 Cal.4th at
p. 1400.) The cases appellant cites in support of his claim are
plainly inapposite.3
To the extent appellant claims that his statements were
involuntary because the detectives exploited his mental illness
and unduly prolonged his interview at the sheriff’s station, those
were not raised below and are thus forfeited. In any event,
appellant fails to establish that the detectives who interviewed
him engaged in coercive conduct. (See People v. Bradford (1997)
14 Cal.4th 1005, 1041 [recognizing that “[c]oercive police activity
is a necessary predicate” to a finding that a confession was
involuntary].) Moreover, the identified circumstances that
allegedly rendered appellant’s statements involuntary took place
at the sheriff’s station. Because appellant had already provided a
detailed account of the incident while he was at the hospital, any
error in admitting the statements he subsequently made at the
sheriff’s station was harmless beyond a reasonable doubt.
(Chapman v. California (1967) 386 U.S. 18, 24 [17 L.Ed.2d 705];
People v. Case (2018) 5 Cal.5th 1, 22 [Miranda violations subject
to harmless error standard of review set forth in Chapman].)
Appellant also fails to inform us that one of the cases
upon which he relies, People v. Boyer (1989) 48 Cal.3d 247, has
been disapproved to the extent it “may be read to suggest that an
officer’s subjective focus of suspicion is an independently relevant
factor in establishing custody for the purposes of Miranda . . . .”
(People v. Stansbury (1995) 9 Cal.4th 824, 830, fn. 1.)
3

9

APPENDIX A

Sufficiency of the Evidence
Appellant claims that his murder conviction must be
reversed because the evidence is insufficient to prove he killed
Vallivero with premeditation and deliberation. In reviewing this
claim, we “must review the whole record in the light most
favorable to the judgment to determine whether it contains
substantial evidence—i.e., evidence that is credible and of solid
value—from which a reasonable trier of fact could have found the
defendant guilty beyond a reasonable doubt.” (People v. Nguyen
(2015) 61 Cal.4th 1015, 1054-1055, internal quotation marks
omitted.) We “presume in support of the judgment the existence
of every fact the jury could reasonably have deduced from the
evidence.” (People v. Zamudio (2008) 43 Cal.4th 327, 357.) “A
reversal for insufficient evidence ‘is unwarranted unless it
appears “that upon no hypothesis whatever is there sufficient
substantial evidence to support’” the jury’s verdict.” (Ibid.)
The “mental state [for first-degree murder] is uniquely
subjective and personal. It requires more than a showing of
intent to kill; the killer must act deliberately, carefully weighing
the considerations for and against a choice to kill before he or she
completes the acts that caused the death.” (People v. Chiu (2014)
59 Cal.4th 155, 166.) The process of premeditation and
deliberation does not require any extended period of time.
(People v. Watkins (2012) 55 Cal.4th 999, 1026.) The test is one of
the extent of reflection rather than the duration of time. (Ibid.)
Our Supreme Court has identified three categories of
evidence relevant to establishing premeditation and deliberation.
(People v. Anderson (1968) 70 Cal.2d 15, 26-27; People v. Brooks
(2017) 3 Cal.5th 1, 58-59; People v. Houston (2012) 54 Cal.4th
1186, 1216.) The categories include events occurring before the

10

APPENDIX A

killing that indicate planning, motive to kill, and manner of
killing that reflects a preconceived design to kill. (Anderson, at
pp. 26-27.) The factors are neither exclusive nor invariably
determinative. (Brooks, at p. 59; Houston, at p. 1216.) Evidence
of each category is not required to affirm a judgment of first
degree murder. (People v. Mejia (2012) 211 Cal.App.4th 586,
605.) The factors are merely a guide in determining whether the
evidence supports an inference that the killing occurred as a
result of preexisting reflection rather than a rash impulse.
(Brooks, at p. 59.)
Sufficient evidence supports appellant’s conviction of
attempted premeditated and deliberate murder. Appellant’s
arguments to the contrary fail to acknowledge the standard of
review, which compels us to view the evidence in the light most
favorable to the judgment. (People v. Nguyen, supra, 61 Cal.4th
at pp. 1054-1055.)
Prior to the killing, appellant armed himself with a rock.
After Vallivero allegedly punched appellant, appellant hit him on
the head with the rock and proceeded to break a beer bottle over
his head, causing him to fall on the couch. Appellant then armed
himself with a baseball bat and repeatedly hit Vallivero in the
head as he lay motionless on the ground. To make sure Vallivero
was dead, appellant retrieved a knife and stabbed him in the
neck. The circumstances and manner of the killing amply
support the jury’s findings of premeditation and deliberation.
(People v. Anderson, supra, 70 Cal.2d at pp. 26-27; see also People
v. Perez (1992) 2 Cal.4th 1117, 1128 [recognizing that defendant’s
use of a second knife to inflict post mortem wounds, when
considered in conjunction with the manner of killing, “could
easily have led the jury to infer premeditation and

11

APPENDIX A

deliberation”].) Appellant also expressed a motive for the killing
by acknowledging he was angry about being evicted, was “sick of
[Vallivero’s] shit,” and wanted him “gone.” Appellant’s claim of
insufficient evidence thus fails.
Evidence of Vallivero’s Drug Use
Appellant also contends the court abused its discretion and
violated his due process rights by excluding evidence of
Vallivero’s drug use. We disagree.
Only relevant evidence is admissible. (Evid. Code, § 350.)
Evidence is relevant if it has “any tendency in reason to prove or
disprove any disputed fact that is of consequence to the
determination of the action.” (Evid. Code, § 210.) A trial court
has discretion to exclude relevant evidence when its prejudicial
effect substantially outweighs its probative value. (Evid. Code,
§ 352.) Evidentiary rulings are reviewed for abuse of discretion,
and a court’s decision will be upheld unless it exceeds the bounds
of reason. (People v. Williams (1997) 16 Cal.4th 153, 196-197; see
also People v. Stitely (2005) 35 Cal.4th 514, 550.)
When appellant was interviewed, he stated that Vallivero
used methamphetamine and was “drinking and on meth” when
the crime occurred. Prior to trial, the prosecution moved in
limine to exclude any reference to Vallivero’s methamphetamine
and cocaine use as irrelevant and substantially more prejudicial
than probative under Evidence Code section 352. The court
granted the motion after finding that the evidence was both
irrelevant and unduly prejudicial because no methamphetamine,
cocaine, or other illicit drugs were found in Vallivero’s system
after his death. Later in the proceedings, defense counsel moved
to admit Vallivero’s medical records showing that Vallivero had
admitted using methamphetamine and had been diagnosed as a

12

APPENDIX A

chronic user of the drug. The court denied the motion and
reiterated its prior ruling that evidence of Vallivero’s
methamphetamine use was unduly prejudicial under Evidence
Code section 352.
The court did not err. Appellant contends that “his
statements about how he personally experienced Vallivero to act
unreasonably and violently when Vallivero was using or high on
meth were relevant to show the reasonableness of appellant’s fear
and resulting actions.” It is undisputed, however, that Vallivero
was not under the influence of methamphetamine or any other
illicit drug when he was killed. Moreover, it is not reasonably
probable that appellant would have achieved a more favorable
result had the challenged evidence been admitted. As the People
aptly put it, “appellant’s alleged belief that Vallivero was under
the influence of methamphetamine, as opposed to just alcohol,
had minimal or no probative value to any claim of self-defense.”
Accordingly, any error in excluding evidence of Vallivero’s drug
use was harmless. (People v. Watson (1956) 46 Cal.2d 818, 836;
People v. Mullens (2004) 119 Cal.App.4th 648, 659 [error in
excluding evidence under Evidence Code section 352 reviewed
under the harmless error standard set forth in Watson].)
Mutual Combat/Initial Aggressor (CALCRIM No. 3471)
The trial court instructed the jury on the doctrines of selfdefense (CALCRIM No. 505) and imperfect self-defense
(CALCRIM No. 571). Over appellant’s objection, the jury was
also instructed on the limitations of the right of self-defense to
one who engaged in mutual combat or acted as the initial
aggressor, as provided in CALCRIM No. 3471.4 Appellant
The jury was instructed as follows: “A person who
engages in mutual combat or who starts a fight has a right to
4

13

APPENDIX A

contends the court committed prejudicial error and violated his
federal constitutional rights by giving the mutual combat
instruction. This contention lacks merit.
“It is error to give an instruction which, while correctly
stating a principle of law, has no application to the facts of the
case.” (People v. Guiton (1993) 4 Cal.4th 1116, 1129.) Error in
giving an inapplicable instruction is one of state law subject to
the Watson test for prejudice, under which reversal is required if
it is reasonably probable the defendant would have obtained a
more favorable result in the absence of the error. (Id. at p. 1130;
Watson, supra, 46 Cal.2d at p. 836.)
The court did not err in giving the challenged instruction.
There was evidence from which the jury could have found that
appellant not only engaged in mutual combat with Vallivero, but
also acted as the initial aggressor. Although appellant offers his

self-defense only if: [¶] 1. He actually and in good faith tried to
stop fighting; [¶] 2. He indicated, by word or by conduct, to his
opponent, in a way that a reasonable person would understand,
that he wanted to stop fighting and that he had stopped fighting;
[¶] AND [¶] 3. He gave his opponent a chance to stop fighting.
[¶] If the defendant meets these requirements, he then had a
right to self-defense if the opponent continued to fight. [¶]
However, if the defendant used only non-deadly force, and the
opponent responded with such sudden and deadly force that the
defendant could not withdraw from the fight, then the defendant
had the right to defend himself with deadly force and was not
required to try to stop fighting, or communicate the desire to stop
to the opponent, or give the opponent a chance to stop fighting.
[¶] A fight is mutual combat when it began or continued by
mutual consent or agreement. That agreement may be expressly
stated or implied and must occur before the claim of self-defense
arose.” (Italics omitted.)

14

APPENDIX A

self-serving assertion that Vallivero initiated the incident by
punching him, the jury was entitled to reject that assertion.
According to Vallivero, appellant had been the initial aggressor of
a prior fight between the two regarding the cleanliness of the
kitchen. Moreover, appellant admitted that he approached
Vallivero with a rock in his hand because he “knew” the two of
them were going to fight. The jury could thus reasonably find
that appellant intended to fight with Vallivero before Vallivero
allegedly punched him.
Even if the instruction should not have been given, the
error would be harmless. The jury was separately instructed
pursuant to CALCRIM No. 3474 that “[t]he right to use force in
self-defense continues only as long as the danger exists or
reasonably appears to exist. When the attacker withdraws or no
longer appears capable of inflicting any injury, then the right to
use force ends.” Appellant continued to use deadly force against
Vallivero well after he had rendered Vallivero incapable of
inflicting any injury upon him. No reasonable juror thus would
have found that appellant killed Vallivero in self-defense or
imperfect self-defense. (People v. Gleghorn (1987) 193 Cal.App.3d
196, 201-202.)
The jury was also instructed pursuant to CALCRIM No.
200 that “[s]ome of the[] instructions may not apply, depending
on your findings about the facts of the case.” Because of this
instruction, “the jury is presumed to disregard an instruction if
the jury finds the evidence does not support its application.”
(People v. Frandsen (2011) 196 Cal.App.4th 266, 278; People v.
Olguin (1994) 31 Cal.App.4th 1355, 1381.) Because appellant
does not rebut this presumption or otherwise demonstrate a
reasonable probability that he would have achieved a more

15

APPENDIX A

favorable result had the challenged instruction not been given,
his claim fails. (People v. Guiton, supra, 4 Cal.4th at p. 1130.)
Prosecutorial Misconduct; Ineffective Assistance of Counsel
For the first time on appeal, appellant contends the
prosecutor committed misconduct by misstating the law eight
times in his closing argument. Anticipating our conclusion that
these claims are forfeited because defense counsel did not object
to any of the alleged misstatements, appellant alternatively
contends that counsel’s failure to object amounts to ineffective
assistance.
Prosecutorial misconduct exists “‘under state law only if it
involves “‘the use of deceptive or reprehensible methods to
attempt to persuade either the court or the jury.’”’” (People v.
Earp (1999) 20 Cal.4th 826, 858.) In more extreme cases, a
defendant’s federal due process rights are violated when a
prosecutor’s improper remarks “‘“‘infect[] the trial with
unfairness,’”’” making it fundamentally unfair. (Ibid.) “‘“To
preserve a claim of prosecutorial misconduct for appeal, a
defendant must make a timely and specific objection and ask the
trial court to admonish the jury to disregard the improper
argument.”’ [Citation.] A court will excuse a defendant’s failure
to object only if an objection would have been futile or if an
admonition would not have cured the harm caused by the
misconduct. [Citation.]” (People v. Jackson (2016) 1 Cal.5th 269,
349.)
Here, defense counsel did not object to the prosecutor’s
alleged misstatements and made no requests that the jury be
admonished. Moreover, appellant has not established that
objections or admonition would have been futile. Because the
alleged misconduct consisted of purported misstatements of law,

16

APPENDIX A

they could have easily been corrected by the trial court with an
admonition. (People v. Centeno (2014) 60 Cal.4th 659, 674
(Centeno).) Appellant’s claims of prosecutorial misconduct are
thus forfeited. (Ibid; People v. Jackson, supra, 1 Cal.5th at
p. 349.)
We also reject appellant’s claims that trial counsel provided
ineffective assistance by failing to object. “A party claiming
ineffective assistance must first demonstrate that his counsel’s
performance was deficient. [Citations.] In reviewing counsel’s
performance, we ‘exercise deferential scrutiny.’ [Citations.] To
that end, it is up to [appellant] to show his counsel’s performance
was deficient because his ‘“representation fell below an objective
standard of reasonableness . . . under prevailing professional
norms.”’ [Citation.] Second, even after a party demonstrates
ineffective assistance, he must also show he has been prejudiced,
i.e., ‘that there is a reasonable probability that, but for his
counsel’s unprofessional errors, the result of the proceeding
would have been different.’ [Citation.] If [appellant’s] showing as
to either component is insufficient, the claim fails. [Citation.]
Accordingly, if he cannot show prejudice, we may reject his claim
of ineffective assistance, and need not address the adequacy of
trial counsel’s performance. [Citations.]” (People v. King (2010)
183 Cal.App.4th 1281, 1298; Strickland v. Washington (1984) 466
U.S. 668, 688, 694 [80 L.Ed.2d 674].)
Moreover, “[t]he appellate record . . . rarely shows that the
failure to object was the result of counsel’s incompetence;
generally, such claims are more appropriately litigated on habeas
corpus, which allows for an evidentiary hearing where the
reasons for defense counsel’s actions or omissions can be
explored.” (People v. Lopez (2008) 42 Cal.4th 960, 966.) “‘[T]he

17

APPENDIX A

decision facing counsel in the midst of trial over whether to object
to comments made by the prosecutor in closing argument is a
highly tactical one’ [citations], and ‘a mere failure to object to
evidence or argument seldom establishes counsel’s incompetence’
[citation].” (Centeno, supra, 60 Cal.4th at p. 675.)
Appellant contends that during closing argument the
prosecutor misstated the law by asserting (1) that “if there is
motive, there’s first degree murder”; (2) that appellant’s efforts to
clean up the crime scene after he killed Vallivero “means [that]
he in his own mind knows he is guilty of murder”; (3) that
appellant could not be found to have acted in self-defense unless
he “reasonably believed he was in imminent danger of being
killed”; (4) that the provocation element of voluntary
manslaughter based on sudden quarrel or heat of passion was not
established by evidence that Vallivero had previously threatened
appellant, because two neighbors who allegedly heard Vallivero
make such threats were not concerned enough to call the police;
(5) that “if you find there is no imperfect self-defense, then it’s
murder”; (6) that the extent of reflection required for a finding of
premeditation is similar to the extent of reflection a driver
engages in when approaching a yellow traffic signal; (7) that for
appellant’s claim of self-defense to be valid, Vallivero “better
have” hit appellant so hard that he “annihilated his jaw”; and (8)
that reasonable doubt means “[i]f what the People are saying is
reasonable and [the] defense says it’s possible but unreasonable,
that’s a guilty verdict.”
Even assuming that defense counsel provided deficient
performance by failing to object to these arguments, appellant
was not prejudiced because the jury was instructed that counsel’s
arguments were not evidence (CALCRIM No. 222) and that the

18

APPENDIX A

jury was to follow the instructions given by the court even if
counsel’s comments conflicted with those instructions (CALCRIM
No. 200). The jury was also properly instructed on reasonable
doubt (CALCRIM Nos. 103, 220), motive (CALCRIM No. 370),
hiding evidence as consciousness of guilt (CALCRIM No. 371),
justifiable homicide based on self-defense (CALCRIM No. 505),
provocation (CALCRIM No. 522), and voluntary manslaughter
based on sudden quarrel or heat of passion (CALCRIM No. 570)
and imperfect self-defense (CALCRIM No. 571). Absent evidence
to the contrary, we presume the jury followed these instructions.
(People v. Johnson (2015) 61 Cal.4th 734, 770; see also People v.
Clair (1992) 2 Cal.4th 629, 663, fn. 8 [“We presume that jurors
treat the court’s instructions as a statement of the law by a judge,
and the prosecutor’s comments as words spoken by an
advocate”].) Appellant offers no such evidence here, so his claim
of ineffective assistance of counsel fails.
Dueñas
For the first time on appeal, appellant contends, in reliance
on Dueñas, supra, 30 Cal.App.5th 1157, that the trial court erred
by ordering him to pay a $30 criminal conviction assessment
(Gov. Code, § 70373) and a $40 court operations assessment
(§ 1465.8, subd. (a)(1)) without first determining his ability to pay
those assessments. In Dueñas, the court held that imposing
these assessments without a hearing on the defendant’s ability to
pay violates due process of law under both the federal and state
constitutions. (Dueñas, at p. 1168.) Neither statute expressly
prohibits the court from considering the defendant’s ability to
pay. By contrast, section 1202.4, subdivisions (b)(1) and (c)
expressly prohibit the trial court from considering a defendant’s
ability to pay a restitution fine unless the fine exceeds $300.

19

APPENDIX A

If the court imposes a restitution fine above the $300
statutory minimum, it may consider the defendant’s ability to
pay. (§ 1202.4, subd. (c).) Appellant was ordered to pay a $7,800
restitution fine, so he had the opportunity to bring to the court’s
attention any factors relevant to his ability to pay. (People v.
Avila (2009) 46 Cal.4th 680, 729.) He did not do so, so he
forfeited any challenges to the restitution fine. (Ibid.) Appellant
likewise did not object to the two assessments he now challenges.
We need not decide whether he forfeited his claims because under
the circumstances present here, where appellant did not object to
the $7,800 restitution fine, “he surely would not complain on
similar grounds regarding an additional” $70 in assessments.
(People v. Gutierrez (2019) 35 Cal.App.5th 1027, 1033.)
Cumulative Error
Appellant contends that the cumulative effect of the alleged
errors deprived him of his due process rights and resulted in the
denial of a fair trial. We reject this contention because there is
no prejudicial error to cumulate. (People v. Koontz (2002) 27
Cal.4th 1041, 1094.)
DISPOSITION
The judgment is affirmed.
NOT TO BE PUBLISHED.

PERREN, J.
We concur:

GILBERT, P. J.

TANGEMAN, J.

20

APPENDIX A

Jacquelyn H. Duffy, Judge
Superior Court County of San Luis Obispo
______________________________
Jean Ballantine, under appointment by the Court of
Appeal, for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters,
Senior Assistant Attorney General, Scott A. Taryle and Viet H.
Nguyen, Deputy Attorneys General, for Plaintiff and Respondent.

APPENDIX A

Filed 3/25/20 P. v. Giese CA2/6

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,
v.
CHARLES CHAD GIESE,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)
ORDER MODIFYING OPINION
AND DENYING REHEARING
[NO CHANGE IN JUDGMENT]

Defendant and Appellant.

THE COURT:
It is ordered that the opinion filed on February 26, 2020, be
modified as follows:
1.
On page 11, the first sentence of the first full
paragraph beginning “Sufficient evidence” is deleted and replaced
with the following:

APPENDIX A

Sufficient evidence supports appellant’s conviction of
willful, premeditated and deliberate murder.
2.
On page 19, the last sentence of the first partial
paragraph beginning “Appellant offers no such evidence” is
deleted and replaced with the following:
Moreover, the prosecutor’s allegedly improper arguments
were brief and the evidence of appellant’s guilt was
overwhelming. (See, e.g., People v. Centeno (2014) 60 Cal.4th
659, 676-677 [applying harmless error analysis to claim that trial
counsel provided ineffective assistance by failing to preserve clam
that prosecutor repeatedly misstated the law on reasonable doubt
during rebuttal].) Appellant’s claims of ineffective assistance of
counsel thus fail.
This modification does not change the judgment.
Appellant’s petition for rehearing is denied.

2

APPENDIX A

Filed 2/26/20 P. v. Giese CA2/6 (unmodified opinion)

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)

v.
CHARLES CHAD GIESE,
Defendant and Appellant.

Charles Chad Giese appeals the judgment entered after a
jury convicted him of willful, deliberate, and premeditated
murder (Pen. Code,1 §§ 187, 189) and found true allegations that
in committing the murder he used two deadly weapons, i.e., a
baseball bat and a knife (§ 12022, subd. (b)(1)). The trial court
sentenced him to 26 years to life in state prison and ordered him
to pay fines and fees including a $7,800 restitution fine (§ 1202.4,
subd. (b)), a $30 criminal conviction assessment (Gov. Code,
All statutory references are to the Penal Code unless
otherwise stated.
1

APPENDIX A

§ 70373), and a $40 court operations assessment (§ 1465.8, subd.
(a)(1)). Appellant contends (1) his extrajudicial statements to law
enforcement were admitted against him in violation of Miranda
v. Arizona (1966) 384 U.S. 436 [16 L.Ed.2d 694] (Miranda); (2)
the evidence is insufficient to support his conviction of first
degree murder; (3) the court erred in excluding evidence of the
victim’s drug use; (4) the jury was erroneously instructed on the
right of self-defense available to a person who starts a fight or
engages in mutual combat; (5) the prosecutor committed
misconduct during closing argument, and defense counsel
provided ineffective assistance by failing to object; and (6) the
cumulative effect of the alleged errors compels the reversal of his
conviction. Appellant also contends the court erred in imposing
the criminal conviction and court operations assessments without
first determining his ability to pay those assessments, as
contemplated in People v. Dueñas (2019) 30 Cal.App.5th 1157
(Dueñas). We affirm.
STATEMENT OF FACTS
In early 2015,2 appellant began renting a room in Walter
Vallivero’s mobile home. Shortly after appellant moved in, the
manager of the mobile home park began receiving complaints
from other residents about frequent loud arguments at
Vallivero’s home. There were also complaints that appellant had
urinated in public and was acting strangely. Several residents
requested that appellant be ordered to leave the mobile home
park. Shawn Reed, the owner of the park, sent Vallivero a letter
outlining the complaints regarding appellant and stating that he
would be asked to leave the park if his inappropriate behavior
continued.
2

All date references are to the year 2015.

2

APPENDIX A

On September 5, the police were called to Vallivero’s home
regarding a physical altercation between appellant and Vallivero.
Appellant told the police that he and Vallivero were arguing
about trash in the kitchen when Vallivero reached into the
cushion on the couch and pulled out a BB gun. Appellant
grabbed the hand that was holding the gun and repeatedly
punched Vallivero in the face. Vallivero told the responding
officers that appellant repeatedly punched him in the face after
he confronted appellant about the messy kitchen. According to
Vallivero, whose face was bloody and swollen, it was appellant
who grabbed the BB gun from the couch cushions before running
outside.
A few days later, Reed sent Vallivero a letter referring to
the recent incident and revoking Vallivero’s right to have
appellant as a renter. On September 17, Reed sent Vallivero
another letter informing him that appellant had 30 days to
vacate the premises. Ten days later, Reed sent Vallivero a letter
informing him that appellant had been observed recklessly
driving in the mobile home park while intoxicated. Vallivero
subsequently told Reed “he was having a hard time getting an
agreement with [appellant] to vacate the park.” On October 7,
appellant was formally served with notice of the eviction
proceedings against him.
On the morning of November 16, appellant’s mother
Brenda Caves called 911 and reported that appellant had hit his
roommate with a baseball bat, that the roommate did not appear
to be breathing, and that appellant had put him in the bathtub.
San Luis Obispo County Sheriff’s Deputies Dustin Phillips and
Jason Hall responded to Caves’s house. Appellant was outside
the house with Caves and his hand was bandaged. Appellant

3

APPENDIX A

requested medical assistance and Deputy Hall rode with him in
an ambulance to the hospital. While they were in the ambulance,
appellant said he cut his finger on a glass bottle and that his jaw
hurt because he had been hit with a fist.
Vallivero’s body was found in the bathtub. He had a
laceration to his left arm, a deep incision wound on the back of
his neck, lacerations and fractures along the left side of his head,
stab wounds to his back, and numerous wounds to his head and
body that were consistent with blunt force trauma. Vallivero also
had defensive wounds on his forearms, hands, and wrists, and
bruises on the right side of his torso. The cause of death was
blunt force injuries to the head. Toxicology results showed that
Vallivero had a 0.19 blood alcohol level; tests for controlled
substances were negative.
Appellant was interviewed at the hospital and later at the
sheriff’s station. He said he had just finished cleaning the
kitchen when Vallivero arrived home after buying beer and told
him to “get the fuck out of [his] house.” Appellant became
“heated” and armed himself with a rock because he was going to
walk past Vallivero and was “sick of [Vallivero’s] shit.” Vallivero
told appellant, “I’m going to kill you. You’re going to fucking die.”
Vallivero punched appellant. Appellant hit Vallivero with the
rock and struck him approximately three times on the head with
a beer bottle. The bottle broke and Vallivero fell backwards onto
the couch. Appellant picked up a baseball bat and hit Vallivero
with it, causing Vallivero to fall to the floor.
Appellant continued to hit Vallivero with the bat as
Vallivero lay motionless on the floor. Appellant then retrieved a
knife and tried to stab Vallivero in the chest “to make sure that

4

APPENDIX A

he was gone.” The knife would not penetrate Vallivero’s chest, so
appellant stabbed him in the neck.
After placing Vallivero’s body in the bathtub, appellant
drank Vallivero’s beer and attempted to clean the house. He also
considered fleeing, but ultimately called Caves and told her what
had happened.
Appellant believed that he had to defend himself because
Vallivero “kept punching” him, but acknowledged that Vallivero
had struck him only once or twice. Appellant felt that his
conduct was due to feelings of frustration that “went way
overboard” and added that if he could “take it back [he] would.”
DISCUSSION
Miranda Motion
Appellant contends the trial court erred in denying his
motion to exclude the statements he made at the hospital and
sheriff’s station on the ground they were obtained in violation of
Miranda. We are not persuaded.
Miranda provides that a person questioned by law
enforcement after being “taken into custody” must first be
warned that he or she has the right to remain silent, that any
statements that he or she makes may be used against the person,
and that he or she has a right to the presence of retained or
appointed counsel. (Miranda, supra, 384 U.S. at p. 444.) For the
Miranda rule to apply, there must be an interrogation by the
police while the suspect is in police custody. (Id. at p. 478.)
Whether a person is in custody “depends on the objective
circumstances of the interrogation, not on the subjective views
harbored by either the interrogating officers or the person being
questioned.” (Stansbury v. California (1994) 511 U.S. 318, 323
[128 L.Ed.2d 293].) “The question whether [the] defendant was

5

APPENDIX A

in custody for Miranda purposes is a mixed question of law and
fact.” (People v. Ochoa (1998) 19 Cal.4th 353, 401.) “[A]n
appellate court must ‘apply a deferential substantial evidence
standard’ [citation] to the trial court’s factual findings regarding
the circumstances surrounding the interrogation, and it must
independently decide whether, given those circumstances, ‘a
reasonable person in [the] defendant’s position would have felt
free to end the questioning and leave’ [citation].” (People v.
Leonard (2007) 40 Cal.4th 1370, 1400.)
“To determine whether an interrogation is custodial we
consider a number of circumstances, including: ‘whether contact
with law enforcement was initiated by the police or the person
interrogated, and if by the police, whether the person voluntarily
agreed to an interview; whether the express purpose of the
interview was to question the person as a witness or a suspect;
where the interview took place; whether police informed the
person that he or she was under arrest or in custody; whether
they informed the person that he or she was free to terminate the
interview and leave at any time and/or whether the person’s
conduct indicated an awareness of such freedom; whether there
were restrictions on the person’s freedom of movement during the
interview; how long the interrogation lasted; how many police
officers participated; whether they dominated and controlled the
course of the interrogation; whether they manifested a belief that
the person was culpable and they had evidence to prove it;
whether the police were aggressive, confrontational, and/or
accusatory; whether the police used interrogation techniques to
pressure the suspect; and whether the person was arrested at the
end of the interrogation.’” (People v. Torres (2018) 25 Cal.App.5th
162, 172-173.)

6

APPENDIX A

At the hearing on appellant’s suppression motion, Deputy
Hall testified that appellant was subjected to a patdown search
for the deputies’ safety when they first encountered him at
Caves’s house. Appellant was never handcuffed and Deputy Hall
never asked him any questions about Vallivero’s killing. Deputy
Hall rode with appellant in the ambulance to the hospital to
ensure the paramedics’ safety while Deputy Phillips followed in
the patrol car.
Detective David Marquez arrived at the hospital and
introduced himself to appellant as he lay in a bed in the
emergency room. Detective Marquez asked appellant if he
needed anything and told him he would speak to him after he
was treated.
Detective Nathan Paul subsequently arrived and
introduced himself to appellant. Detective Paul told appellant he
was there to find out what had happened and asked if appellant
was willing to accompany him to the sheriff’s station to talk.
Appellant said “okay” then added, “I don’t know my rights. . . . I
defended myself.” Detective Paul responded “you’re not under
arrest. If you defended yourself, that’s what I want to hear
about.” Appellant replied: “My mom’s working on an attorney
. . . and [she] told me not to talk to anyone cause I could
incriminate myself . . . . I don’t know my rights, so um, I was in a
fight and I defended myself and – and it got really bad and then I
didn’t know what to do after that point. I tried to clean up the
mess.” Appellant proceeded to provide a detailed account of what
had happened. At one point during the interview, appellant was
allowed to use the bathroom.
After appellant had been treated, Detective Paul asked if
he was still willing to accompany him to the sheriff’s station for

7

APPENDIX A

further questioning. Appellant asked if he could smoke a
cigarette after they arrived at the sheriff’s station and the
detective replied, “When we get there we’ll let you . . . stand
outside and . . . smoke as many as you need.” Appellant then
asked, “I know you’ve probably gotta book me, right?” The
detective replied in the negative and told appellant he was not
being handcuffed and was a “free walking man.”
After they arrived at the sheriff’s station, appellant was
allowed to smoke a cigarette outside and use a restroom without
any supervision. Before conducting the interview, Detective Paul
confirmed with appellant that he was there voluntarily and
reiterated he was not under arrest. During the interview,
appellant took at least three cigarette breaks and a bathroom
break. Near the end of the interview, appellant was told he was
being detained for killing Vallivero.
In denying appellant’s suppression motion, the court found
that appellant had voluntarily agreed to be interviewed; that
there was no custodial interrogation because a reasonable person
in appellant’s position would have felt free to terminate the
interview until the point he was told he was being detained; and
that appellant had never unequivocally indicated that he wanted
an attorney. The court further found that law enforcement had
not dominated or controlled the course of the interrogation and
that appellant had “set the pace” of the interview.
The court did not err in denying appellant’s motion. At
both the hospital and the sheriff’s station, appellant was free of
physical restraints and was advised he was not under arrest and
was free to leave. Moreover, no weapons were displayed and
there is nothing to indicate that the deputies and detectives who
spoke to him were aggressive or accusatory or employed special

8

APPENDIX A

techniques to pressure him. On the contrary, every effort was
made to ensure that appellant was comfortable and that his
needs were accommodated. The court thus correctly found, under
the totality of the circumstances, that appellant’s statements at
the hospital and the sheriff’s station were not the result of a
custodial interrogation. (People v. Leonard, supra, 40 Cal.4th at
p. 1400.) The cases appellant cites in support of his claim are
plainly inapposite.3
To the extent appellant claims that his statements were
involuntary because the detectives exploited his mental illness
and unduly prolonged his interview at the sheriff’s station, those
were not raised below and are thus forfeited. In any event,
appellant fails to establish that the detectives who interviewed
him engaged in coercive conduct. (See People v. Bradford (1997)
14 Cal.4th 1005, 1041 [recognizing that “[c]oercive police activity
is a necessary predicate” to a finding that a confession was
involuntary].) Moreover, the identified circumstances that
allegedly rendered appellant’s statements involuntary took place
at the sheriff’s station. Because appellant had already provided a
detailed account of the incident while he was at the hospital, any
error in admitting the statements he subsequently made at the
sheriff’s station was harmless beyond a reasonable doubt.
(Chapman v. California (1967) 386 U.S. 18, 24 [17 L.Ed.2d 705];
People v. Case (2018) 5 Cal.5th 1, 22 [Miranda violations subject
to harmless error standard of review set forth in Chapman].)
Appellant also fails to inform us that one of the cases
upon which he relies, People v. Boyer (1989) 48 Cal.3d 247, has
been disapproved to the extent it “may be read to suggest that an
officer’s subjective focus of suspicion is an independently relevant
factor in establishing custody for the purposes of Miranda . . . .”
(People v. Stansbury (1995) 9 Cal.4th 824, 830, fn. 1.)
3

9

APPENDIX A

Sufficiency of the Evidence
Appellant claims that his murder conviction must be
reversed because the evidence is insufficient to prove he killed
Vallivero with premeditation and deliberation. In reviewing this
claim, we “must review the whole record in the light most
favorable to the judgment to determine whether it contains
substantial evidence—i.e., evidence that is credible and of solid
value—from which a reasonable trier of fact could have found the
defendant guilty beyond a reasonable doubt.” (People v. Nguyen
(2015) 61 Cal.4th 1015, 1054-1055, internal quotation marks
omitted.) We “presume in support of the judgment the existence
of every fact the jury could reasonably have deduced from the
evidence.” (People v. Zamudio (2008) 43 Cal.4th 327, 357.) “A
reversal for insufficient evidence ‘is unwarranted unless it
appears “that upon no hypothesis whatever is there sufficient
substantial evidence to support’” the jury’s verdict.” (Ibid.)
The “mental state [for first-degree murder] is uniquely
subjective and personal. It requires more than a showing of
intent to kill; the killer must act deliberately, carefully weighing
the considerations for and against a choice to kill before he or she
completes the acts that caused the death.” (People v. Chiu (2014)
59 Cal.4th 155, 166.) The process of premeditation and
deliberation does not require any extended period of time.
(People v. Watkins (2012) 55 Cal.4th 999, 1026.) The test is one of
the extent of reflection rather than the duration of time. (Ibid.)
Our Supreme Court has identified three categories of
evidence relevant to establishing premeditation and deliberation.
(People v. Anderson (1968) 70 Cal.2d 15, 26-27; People v. Brooks
(2017) 3 Cal.5th 1, 58-59; People v. Houston (2012) 54 Cal.4th
1186, 1216.) The categories include events occurring before the

10

APPENDIX A

killing that indicate planning, motive to kill, and manner of
killing that reflects a preconceived design to kill. (Anderson, at
pp. 26-27.) The factors are neither exclusive nor invariably
determinative. (Brooks, at p. 59; Houston, at p. 1216.) Evidence
of each category is not required to affirm a judgment of first
degree murder. (People v. Mejia (2012) 211 Cal.App.4th 586,
605.) The factors are merely a guide in determining whether the
evidence supports an inference that the killing occurred as a
result of preexisting reflection rather than a rash impulse.
(Brooks, at p. 59.)
Sufficient evidence supports appellant’s conviction of
attempted premeditated and deliberate murder. Appellant’s
arguments to the contrary fail to acknowledge the standard of
review, which compels us to view the evidence in the light most
favorable to the judgment. (People v. Nguyen, supra, 61 Cal.4th
at pp. 1054-1055.)
Prior to the killing, appellant armed himself with a rock.
After Vallivero allegedly punched appellant, appellant hit him on
the head with the rock and proceeded to break a beer bottle over
his head, causing him to fall on the couch. Appellant then armed
himself with a baseball bat and repeatedly hit Vallivero in the
head as he lay motionless on the ground. To make sure Vallivero
was dead, appellant retrieved a knife and stabbed him in the
neck. The circumstances and manner of the killing amply
support the jury’s findings of premeditation and deliberation.
(People v. Anderson, supra, 70 Cal.2d at pp. 26-27; see also People
v. Perez (1992) 2 Cal.4th 1117, 1128 [recognizing that defendant’s
use of a second knife to inflict post mortem wounds, when
considered in conjunction with the manner of killing, “could
easily have led the jury to infer premeditation and

11

APPENDIX A

deliberation”].) Appellant also expressed a motive for the killing
by acknowledging he was angry about being evicted, was “sick of
[Vallivero’s] shit,” and wanted him “gone.” Appellant’s claim of
insufficient evidence thus fails.
Evidence of Vallivero’s Drug Use
Appellant also contends the court abused its discretion and
violated his due process rights by excluding evidence of
Vallivero’s drug use. We disagree.
Only relevant evidence is admissible. (Evid. Code, § 350.)
Evidence is relevant if it has “any tendency in reason to prove or
disprove any disputed fact that is of consequence to the
determination of the action.” (Evid. Code, § 210.) A trial court
has discretion to exclude relevant evidence when its prejudicial
effect substantially outweighs its probative value. (Evid. Code,
§ 352.) Evidentiary rulings are reviewed for abuse of discretion,
and a court’s decision will be upheld unless it exceeds the bounds
of reason. (People v. Williams (1997) 16 Cal.4th 153, 196-197; see
also People v. Stitely (2005) 35 Cal.4th 514, 550.)
When appellant was interviewed, he stated that Vallivero
used methamphetamine and was “drinking and on meth” when
the crime occurred. Prior to trial, the prosecution moved in
limine to exclude any reference to Vallivero’s methamphetamine
and cocaine use as irrelevant and substantially more prejudicial
than probative under Evidence Code section 352. The court
granted the motion after finding that the evidence was both
irrelevant and unduly prejudicial because no methamphetamine,
cocaine, or other illicit drugs were found in Vallivero’s system
after his death. Later in the proceedings, defense counsel moved
to admit Vallivero’s medical records showing that Vallivero had
admitted using methamphetamine and had been diagnosed as a

12

APPENDIX A

chronic user of the drug. The court denied the motion and
reiterated its prior ruling that evidence of Vallivero’s
methamphetamine use was unduly prejudicial under Evidence
Code section 352.
The court did not err. Appellant contends that “his
statements about how he personally experienced Vallivero to act
unreasonably and violently when Vallivero was using or high on
meth were relevant to show the reasonableness of appellant’s fear
and resulting actions.” It is undisputed, however, that Vallivero
was not under the influence of methamphetamine or any other
illicit drug when he was killed. Moreover, it is not reasonably
probable that appellant would have achieved a more favorable
result had the challenged evidence been admitted. As the People
aptly put it, “appellant’s alleged belief that Vallivero was under
the influence of methamphetamine, as opposed to just alcohol,
had minimal or no probative value to any claim of self-defense.”
Accordingly, any error in excluding evidence of Vallivero’s drug
use was harmless. (People v. Watson (1956) 46 Cal.2d 818, 836;
People v. Mullens (2004) 119 Cal.App.4th 648, 659 [error in
excluding evidence under Evidence Code section 352 reviewed
under the harmless error standard set forth in Watson].)
Mutual Combat/Initial Aggressor (CALCRIM No. 3471)
The trial court instructed the jury on the doctrines of selfdefense (CALCRIM No. 505) and imperfect self-defense
(CALCRIM No. 571). Over appellant’s objection, the jury was
also instructed on the limitations of the right of self-defense to
one who engaged in mutual combat or acted as the initial
aggressor, as provided in CALCRIM No. 3471.4 Appellant
The jury was instructed as follows: “A person who
engages in mutual combat or who starts a fight has a right to
4

13

APPENDIX A

contends the court committed prejudicial error and violated his
federal constitutional rights by giving the mutual combat
instruction. This contention lacks merit.
“It is error to give an instruction which, while correctly
stating a principle of law, has no application to the facts of the
case.” (People v. Guiton (1993) 4 Cal.4th 1116, 1129.) Error in
giving an inapplicable instruction is one of state law subject to
the Watson test for prejudice, under which reversal is required if
it is reasonably probable the defendant would have obtained a
more favorable result in the absence of the error. (Id. at p. 1130;
Watson, supra, 46 Cal.2d at p. 836.)
The court did not err in giving the challenged instruction.
There was evidence from which the jury could have found that
appellant not only engaged in mutual combat with Vallivero, but
also acted as the initial aggressor. Although appellant offers his

self-defense only if: [¶] 1. He actually and in good faith tried to
stop fighting; [¶] 2. He indicated, by word or by conduct, to his
opponent, in a way that a reasonable person would understand,
that he wanted to stop fighting and that he had stopped fighting;
[¶] AND [¶] 3. He gave his opponent a chance to stop fighting.
[¶] If the defendant meets these requirements, he then had a
right to self-defense if the opponent continued to fight. [¶]
However, if the defendant used only non-deadly force, and the
opponent responded with such sudden and deadly force that the
defendant could not withdraw from the fight, then the defendant
had the right to defend himself with deadly force and was not
required to try to stop fighting, or communicate the desire to stop
to the opponent, or give the opponent a chance to stop fighting.
[¶] A fight is mutual combat when it began or continued by
mutual consent or agreement. That agreement may be expressly
stated or implied and must occur before the claim of self-defense
arose.” (Italics omitted.)

14

APPENDIX A

self-serving assertion that Vallivero initiated the incident by
punching him, the jury was entitled to reject that assertion.
According to Vallivero, appellant had been the initial aggressor of
a prior fight between the two regarding the cleanliness of the
kitchen. Moreover, appellant admitted that he approached
Vallivero with a rock in his hand because he “knew” the two of
them were going to fight. The jury could thus reasonably find
that appellant intended to fight with Vallivero before Vallivero
allegedly punched him.
Even if the instruction should not have been given, the
error would be harmless. The jury was separately instructed
pursuant to CALCRIM No. 3474 that “[t]he right to use force in
self-defense continues only as long as the danger exists or
reasonably appears to exist. When the attacker withdraws or no
longer appears capable of inflicting any injury, then the right to
use force ends.” Appellant continued to use deadly force against
Vallivero well after he had rendered Vallivero incapable of
inflicting any injury upon him. No reasonable juror thus would
have found that appellant killed Vallivero in self-defense or
imperfect self-defense. (People v. Gleghorn (1987) 193 Cal.App.3d
196, 201-202.)
The jury was also instructed pursuant to CALCRIM No.
200 that “[s]ome of the[] instructions may not apply, depending
on your findings about the facts of the case.” Because of this
instruction, “the jury is presumed to disregard an instruction if
the jury finds the evidence does not support its application.”
(People v. Frandsen (2011) 196 Cal.App.4th 266, 278; People v.
Olguin (1994) 31 Cal.App.4th 1355, 1381.) Because appellant
does not rebut this presumption or otherwise demonstrate a
reasonable probability that he would have achieved a more

15

APPENDIX A

favorable result had the challenged instruction not been given,
his claim fails. (People v. Guiton, supra, 4 Cal.4th at p. 1130.)
Prosecutorial Misconduct; Ineffective Assistance of Counsel
For the first time on appeal, appellant contends the
prosecutor committed misconduct by misstating the law eight
times in his closing argument. Anticipating our conclusion that
these claims are forfeited because defense counsel did not object
to any of the alleged misstatements, appellant alternatively
contends that counsel’s failure to object amounts to ineffective
assistance.
Prosecutorial misconduct exists “‘under state law only if it
involves “‘the use of deceptive or reprehensible methods to
attempt to persuade either the court or the jury.’”’” (People v.
Earp (1999) 20 Cal.4th 826, 858.) In more extreme cases, a
defendant’s federal due process rights are violated when a
prosecutor’s improper remarks “‘“‘infect[] the trial with
unfairness,’”’” making it fundamentally unfair. (Ibid.) “‘“To
preserve a claim of prosecutorial misconduct for appeal, a
defendant must make a timely and specific objection and ask the
trial court to admonish the jury to disregard the improper
argument.”’ [Citation.] A court will excuse a defendant’s failure
to object only if an objection would have been futile or if an
admonition would not have cured the harm caused by the
misconduct. [Citation.]” (People v. Jackson (2016) 1 Cal.5th 269,
349.)
Here, defense counsel did not object to the prosecutor’s
alleged misstatements and made no requests that the jury be
admonished. Moreover, appellant has not established that
objections or admonition would have been futile. Because the
alleged misconduct consisted of purported misstatements of law,

16

APPENDIX A

they could have easily been corrected by the trial court with an
admonition. (People v. Centeno (2014) 60 Cal.4th 659, 674
(Centeno).) Appellant’s claims of prosecutorial misconduct are
thus forfeited. (Ibid; People v. Jackson, supra, 1 Cal.5th at
p. 349.)
We also reject appellant’s claims that trial counsel provided
ineffective assistance by failing to object. “A party claiming
ineffective assistance must first demonstrate that his counsel’s
performance was deficient. [Citations.] In reviewing counsel’s
performance, we ‘exercise deferential scrutiny.’ [Citations.] To
that end, it is up to [appellant] to show his counsel’s performance
was deficient because his ‘“representation fell below an objective
standard of reasonableness . . . under prevailing professional
norms.”’ [Citation.] Second, even after a party demonstrates
ineffective assistance, he must also show he has been prejudiced,
i.e., ‘that there is a reasonable probability that, but for his
counsel’s unprofessional errors, the result of the proceeding
would have been different.’ [Citation.] If [appellant’s] showing as
to either component is insufficient, the claim fails. [Citation.]
Accordingly, if he cannot show prejudice, we may reject his claim
of ineffective assistance, and need not address the adequacy of
trial counsel’s performance. [Citations.]” (People v. King (2010)
183 Cal.App.4th 1281, 1298; Strickland v. Washington (1984) 466
U.S. 668, 688, 694 [80 L.Ed.2d 674].)
Moreover, “[t]he appellate record . . . rarely shows that the
failure to object was the result of counsel’s incompetence;
generally, such claims are more appropriately litigated on habeas
corpus, which allows for an evidentiary hearing where the
reasons for defense counsel’s actions or omissions can be
explored.” (People v. Lopez (2008) 42 Cal.4th 960, 966.) “‘[T]he

17

APPENDIX A

decision facing counsel in the midst of trial over whether to object
to comments made by the prosecutor in closing argument is a
highly tactical one’ [citations], and ‘a mere failure to object to
evidence or argument seldom establishes counsel’s incompetence’
[citation].” (Centeno, supra, 60 Cal.4th at p. 675.)
Appellant contends that during closing argument the
prosecutor misstated the law by asserting (1) that “if there is
motive, there’s first degree murder”; (2) that appellant’s efforts to
clean up the crime scene after he killed Vallivero “means [that]
he in his own mind knows he is guilty of murder”; (3) that
appellant could not be found to have acted in self-defense unless
he “reasonably believed he was in imminent danger of being
killed”; (4) that the provocation element of voluntary
manslaughter based on sudden quarrel or heat of passion was not
established by evidence that Vallivero had previously threatened
appellant, because two neighbors who allegedly heard Vallivero
make such threats were not concerned enough to call the police;
(5) that “if you find there is no imperfect self-defense, then it’s
murder”; (6) that the extent of reflection required for a finding of
premeditation is similar to the extent of reflection a driver
engages in when approaching a yellow traffic signal; (7) that for
appellant’s claim of self-defense to be valid, Vallivero “better
have” hit appellant so hard that he “annihilated his jaw”; and (8)
that reasonable doubt means “[i]f what the People are saying is
reasonable and [the] defense says it’s possible but unreasonable,
that’s a guilty verdict.”
Even assuming that defense counsel provided deficient
performance by failing to object to these arguments, appellant
was not prejudiced because the jury was instructed that counsel’s
arguments were not evidence (CALCRIM No. 222) and that the

18

APPENDIX A

jury was to follow the instructions given by the court even if
counsel’s comments conflicted with those instructions (CALCRIM
No. 200). The jury was also properly instructed on reasonable
doubt (CALCRIM Nos. 103, 220), motive (CALCRIM No. 370),
hiding evidence as consciousness of guilt (CALCRIM No. 371),
justifiable homicide based on self-defense (CALCRIM No. 505),
provocation (CALCRIM No. 522), and voluntary manslaughter
based on sudden quarrel or heat of passion (CALCRIM No. 570)
and imperfect self-defense (CALCRIM No. 571). Absent evidence
to the contrary, we presume the jury followed these instructions.
(People v. Johnson (2015) 61 Cal.4th 734, 770; see also People v.
Clair (1992) 2 Cal.4th 629, 663, fn. 8 [“We presume that jurors
treat the court’s instructions as a statement of the law by a judge,
and the prosecutor’s comments as words spoken by an
advocate”].) Appellant offers no such evidence here, so his claim
of ineffective assistance of counsel fails.
Dueñas
For the first time on appeal, appellant contends, in reliance
on Dueñas, supra, 30 Cal.App.5th 1157, that the trial court erred
by ordering him to pay a $30 criminal conviction assessment
(Gov. Code, § 70373) and a $40 court operations assessment
(§ 1465.8, subd. (a)(1)) without first determining his ability to pay
those assessments. In Dueñas, the court held that imposing
these assessments without a hearing on the defendant’s ability to
pay violates due process of law under both the federal and state
constitutions. (Dueñas, at p. 1168.) Neither statute expressly
prohibits the court from considering the defendant’s ability to
pay. By contrast, section 1202.4, subdivisions (b)(1) and (c)
expressly prohibit the trial court from considering a defendant’s
ability to pay a restitution fine unless the fine exceeds $300.

19

APPENDIX A

If the court imposes a restitution fine above the $300
statutory minimum, it may consider the defendant’s ability to
pay. (§ 1202.4, subd. (c).) Appellant was ordered to pay a $7,800
restitution fine, so he had the opportunity to bring to the court’s
attention any factors relevant to his ability to pay. (People v.
Avila (2009) 46 Cal.4th 680, 729.) He did not do so, so he
forfeited any challenges to the restitution fine. (Ibid.) Appellant
likewise did not object to the two assessments he now challenges.
We need not decide whether he forfeited his claims because under
the circumstances present here, where appellant did not object to
the $7,800 restitution fine, “he surely would not complain on
similar grounds regarding an additional” $70 in assessments.
(People v. Gutierrez (2019) 35 Cal.App.5th 1027, 1033.)
Cumulative Error
Appellant contends that the cumulative effect of the alleged
errors deprived him of his due process rights and resulted in the
denial of a fair trial. We reject this contention because there is
no prejudicial error to cumulate. (People v. Koontz (2002) 27
Cal.4th 1041, 1094.)
DISPOSITION
The judgment is affirmed.
NOT TO BE PUBLISHED.

PERREN, J.
We concur:

GILBERT, P. J.

TANGEMAN, J.

20

APPENDIX A

Jacquelyn H. Duffy, Judge
Superior Court County of San Luis Obispo
______________________________
Jean Ballantine, under appointment by the Court of
Appeal, for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters,
Senior Assistant Attorney General, Scott A. Taryle and Viet H.
Nguyen, Deputy Attorneys General, for Plaintiff and Respondent.

APPENDIX A

SUPREME COURT

Fl LED
Court of Appeal, Second Appellate District, Division Six - No. B292208

MAY 2 7 2020

Jorge Navarrete Clerk

S261456

IN THE SUPREME C.OURT OF CALIFORNIA

Deputy

En Banc
THE PEOPLE, Plaintiff and Respondent,
. ··- -

v.

---·- - -

....· ··-· - -· - -· ------ - - - - - - - - -

CHARLES CHAD GIESE, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

APPENDIX B

....
({.. if)

"""°"'
.-t.:i.'

_:S'
-.,r.-"'

;...d\1J

0_.....
C!H.:!'.i

---uJ ::.-

~~

i---.,.

~t..0
(...)C)

cw
oct-

",_:.._,.\

~

~

v'

pf-

...,.ltd
01:;J
_.-,;
.;:,-":;..,,,-

N

,,-

~

-,er

...-

~
c::::>

c-l

w..l,:i'..
~J;: (./)
CCC;:)

0..-\
1--

1-

"4.

APPENDIX B

